HHS/OIG, Audit -"Review of Payments Made by Associated Hospital Services for Home Health Services Preceded by a Hospital Discharge,"(A-01-03-00500)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Payments Made by Associated Hospital Services for Home Health
Services Preceded by a Hospital Discharge," (A-01-03-00500)
July 8, 2003
Complete
Text of Report is available in PDF format (629 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether home health agencies (HHA)
were billing for services that were preceded by an inpatient hospital discharge
in compliance with Medicare regulations.  Medicare prospective payments system
regulations provide for a higher payment to HHAs for home health services for which
the beneficiary was not discharged from an inpatient hospital within 14 days of
the HHA episode.  We identified 6,388 claims in fiscal year 2001 for which
it appears HHAs received a higher payment even though the beneficiary was discharged
from an inpatient hospital within 14 days preceding the home health services.  Based
on a stratified random sample of 200 claims, we estimate about $1.9 million in
overpayments to HHAs for the 6,388 claims.  We recommended financial adjustments
and internal control improvements, which were generally concurred with by Associated
Hospital Service, the regional home health intermediary.